                      U.S. Department of Agriculture

                         Office of Inspector General
                          Inspections and Research




          Inspection Report

     Management Oversight of Federal
Employees’ Compensation Act Operations
 within the U.S. Department of Agriculture




                             Report No. 50901-02-IR
                                   September 2009
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


September 4, 2009

REPLY TO
ATTN OF:       50901-02-IR


TO:            Pearlie Reed
               Assistant Secretary
               Departmental Administration

FROM:          Rod DeSmet /s/
               Assistant Inspector General
               for Inspections and Research

SUBJECT:       Review of the Department of Agriculture’s Implementation of
               Departmental Regulation (DR) 4430-3--USDA Workers’ Compensation
               Program


The Office of Inspector General (OIG) conducted this inspection to determine whether
the Department of Agriculture (USDA) has implemented Departmental Regulation (DR)
4430-3, titled USDA Workers’ Compensation Program in accordance with the stated
guidance. The DR sets forth USDA’s policy defining USDA and agency responsibilities
for performing Office of Workers’ Compensation Programs (OWCP) case management
activities. We also reviewed the status of recommendations from a prior OIG audit report
titled, Management Oversight of Federal Employees’ Compensation Act Operations
within the U.S. Department of Agriculture, Report Number 50601-2-Hy, dated August
2005.

Your response to our draft, dated June 12, 2009, is included in its entirety in Exhibit B,
and your followup response dated August 12, 2009, is included in its entirety in
Exhibit C, with excerpts incorporated into the “Findings and Recommendations” section
of the report. Based on your response, we accepted management decision on six of the
report’s seven recommendations. Please follow your internal agency procedures for
reporting final action to the Chief Financial Officer.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the interim solution and timeframes for implementing
Recommendation 3. Please note that the regulation requires management decision to be
reached on all recommendations within 6 months from report issuance and final action to
be taken within 1 year of the date of management decision.

We appreciate the courtesies and cooperation extended to us during the inspection.
Executive Summary
____________________________________________________________________________

Results in Brief          The Office of Inspector General (OIG) conducted this inspection to
                          determine whether the Department of Agriculture (USDA) has
                          implemented Departmental Regulation (DR) 4430-3, titled USDA
                          Workers’ Compensation Programs, in accordance with the stated
                          guidance. The DR sets forth USDA’s policy defining USDA and agency
                          responsibilities for performing Office of Workers’ Compensation Program
                          (OWCP) case management activities. We also reviewed the status of
                          recommendations from a prior OIG audit report titled, Management
                          Oversight of Federal Employee’s Compensation Act Operations within the
                          U.S. Department of Agriculture, Report Number 50601-2-Hy, dated
                          August 2005.

                          The Federal Employees’ Compensation Act (FECA) provides
                          compensation and medical benefits to employees of the Federal
                          Government for personal injury or disease sustained while in the
                          performance of duty. 1 FECA also provides benefits to an employee’s
                          dependents if the work-related injury or disease results in the employee’s
                          death. Additionally, employees sustaining a traumatic injury in the
                          performance of duty are entitled to Continuation of Pay (COP) for up to
                          45 days while they recover from the injury. The program is administered
                          by the Department of Labor (DOL) Employment Standards
                          Administration, Office of Workers’ Compensation Programs. The
                          employing agency is responsible for the initiation of claims and much of
                          the case management. The USDA Fiscal Year (FY) 2008 Performance
                          and Accountability Report, page 184, reported that USDA’s FY 2007
                          unfunded FECA liability totaled $162 million.

                          The Department’s Quality of Work Life Division 2 (QWD) is responsible
                          for administering USDA’s OWCP and overseeing each agency’s OWCP
                          activities. According to the current DR, QWD supports the Department
                          and its agencies by providing:
                              • OWCP related policy guidance.
                              • Timely access to the cost and claim information necessary to
                                  manage agency programs.
                              • Technical assistance and consulting services.
                              • Periodic reviews of each agency’s OWCP to ensure compliance.


1
  FECA is contained in Title 5 of the United States Code, Sections 8101-8193, and Title 20 Code of Federal
Regulations, Part 1-25.
2
  QWD was formerly known as the Safety, Health, and Employee Welfare Division (SHEWD)

USDA/OIG‐IR/50901‐02‐IR                                                                                      Page i
                    To review the implementation of the DR we conducted surveys of each
                    USDA agency, interviewed the OWCP program manager for each agency,
                    and interviewed the QWD staff responsible for OWCP activities at the
                    Department level.

                    OIG found that QWD should take a more active role in managing the
                    OWCP program. QWD needs to develop processes for providing
                    oversight and guidance to agency OWCP program managers. Since QWD
                    has limited resources, it should consider partnering with agency program
                    managers to assist with its oversight activities. OIG found that routine
                    group communication and information sharing would increase
                    opportunities for teaming and sharing agency best practices of USDA
                    OWCP program managers and QWD to improve program operations.

                    The DR requires QWD to conduct periodic reviews of agency OWCP
                    activities and compliance with applicable regulations and guidance. Prior
                    OIG audit 50601-2-Hy recommendation to perform agency reviews in
                    compliance with the DR continues to need management attention. QWD
                    is not conducting agency reviews unless a review is requested by the
                    agency.

                    The DR requires that chargeback reports be reviewed quarterly to ensure
                    that the recipients are properly assigned to the correct agency and that no
                    cost discrepancies exist. OIG found that opportunities existed for QWD
                    and some agencies to strengthen the monitoring and accuracy of quarterly
                    chargeback reports. All 11 program managers stated that the chargeback
                    reports are delinquent and are not received quarterly from the Department.
                    Some agencies reported to OIG that they do not have the needed software
                    to download and access the chargeback data once it is received. The
                    Director of QWD stated that they are having difficulty getting their
                    contractor to produce error free chargeback data.

                    OIG found that USDA’s OWCP Website contains out-of-date information.
                    The agency contact information is not correct and has been out-of-date for
                    at least three years. To ensure quality customer service is provided to
                    employees, claimants, and other interested stakeholders, actions need to be
                    taken to better monitor the accuracy of the Website information.

                    OIG also found that a structured training program, including on-going
                    refresher training, could improve and better standardize OWCP case
                    management activities across agencies.

Recommendations     We recommend that QWD take the following actions:
In Brief
                    • Comply with the DR by conducting periodic reviews of each agency’s
                      compliance with applicable regulations and guidelines. Due to

  USDA/OIG‐IR/50901‐02‐IR                                                              Page ii
                      QWD’s limited resources, it should consider partnering with agency
                      program managers to conduct periodic reviews.

                   • Verify and document that all USDA agency program managers have
                     the software necessary to review the quarterly chargeback reports, that
                     the program managers are familiar with using the software, and that
                     the software is working properly so that the data can be accessed and
                     reviewed. Based on each agency’s response, QWD will provide each
                     agency with the information necessary so that the agency can acquire
                     the needed software.

                   • Resolve the repeated errors in the chargeback reports submitted by the
                     contractor. If discrepancies in the contractor-supplied data continue,
                     then appropriate action regarding the contractor’s performance needs
                     to be taken by QWD. QWD needs accurate data from the contractor to
                     ensure that the quarterly chargeback reports are delivered to the
                     agency program managers in a timely manner.

                   • Provide guidance to each of the agencies so that reviews of chargeback
                     data information are done consistently across USDA.

                   • Facilitate regularly scheduled meetings with agency program
                     managers to discuss policy updates, chargeback reports, processing
                     issues, return-to-work programs, and other functions. These sessions
                     should also be used to share any best practices that are identified
                     during the periodic reviews conducted by QWD.

                   • Ensure that the OWCP information posted on the USDA Website is
                     correct and kept current.

                   • Provide a structured training program to program managers and
                     caseworkers when they assume the responsibility for OWCP.
                     Refresher training needs to be provided to ensure responsible staff
                     members remain current with and understand program changes.

Agency Response   QWD has agreed to implement the recommendations made in this report.

OIG Position      Based on QWD’s response, we were able to reach management decision on
                  six of the report’s seven recommendations. Management decision on
                  Recommendation 3 can be reached once QWD provides us with the
                  additional information outlined in the report section, “OIG Position.”




USDA/OIG‐IR/50901‐02‐IR                                                             Page iii
Table of Contents
__________________________________________________________
Executive Summary………………………………………….……………………….……...…….i

Abbreviations Used in This Report………………………….………………………………...…..v

Background………………………………………………….……………………………...…......1

Objectives…………………………………………………………………………………………2

Findings and Recommendations…………………………………………………………………..3

Policy Compliance………………………………………………………………………………...3

Recommendation 1………………………………………………………………………………..3

Processing of Chargeback Reports………………………………………………………………..4

Recommendation 2……………………………………………………………………....…….….4

Recommendation 3……………………………………………………….…….………….……...5

Recommendation 4………………………………………………………………………………..6

Communication and Information Dissemination…………....………………...…………….…....7

Recommendation 5……………………………………………………………………………..…7

Recommendation 6………………………………………………………………………………..8

Experience and Structured Training……………………………………………………………....8

Recommendation 7…………………………………………………………………….……….…9

Conclusions…………………………………………………………………………….………....9

Scope and Methodology……………………………………………………………….………...11

Exhibit A………………………………………………………………….…………….………..12

Exhibit B – Departmental Administration June 12, 2009 Response…………….…….………...13

Exhibit C – Departmental Administration August 12, 2009 Response………………..………...16


USDA/OIG‐IR/50901‐02‐IR                                                   Page iv
Abbreviations Used in This Report

COP               Continuation of Pay
DOL               Department of Labor
DR                Departmental Regulation
FECA              Federal Employees’ Compensation Act
FY                Fiscal Year
OHRM              Office of Human Resources Management
OIG               Office of Inspector General
OWCP              Office of Workers’ Compensation Programs
PME               Personnel Management Evaluation
QWD               Quality of Work Life Division
QWLD              Quality Work Life Division
SHEWD             Safety, Health, and Employee Welfare Division
USDA              U.S. Department of Agriculture




USDA/OIG‐IR/50901‐02‐IR                                           Page v
Background and Objectives

Background Departmental Regulation (DR) 4430-3, titled USDA Workers’ Compensation
              Program, dated January 8, 2001, established the authority and policy for
              providing and monitoring compensation and benefits to employees who sustain
              a traumatic injury or occupational condition while in the performance of duty.
              The authority for providing compensation for injuries and illnesses sustained in
              the performance of duty is contained in FECA. FECA provides compensation
              and medical benefits to employees of the Federal Government for personal
              injury or disease sustained while in the performance of duty. FECA also
              provides benefits to an employee’s dependents if the work-related injury or
              disease results in the employee’s death. The program is administered by
              DOL’s Employment Standards Administration, Office of Workers’
              Compensation. The employing agency is responsible for the initiation of
              claims and much of the case management. The DR sets forth USDA’s policy
              for USDA and agency responsibilities for performing OWCP case management
              activities.

              QWD is responsible for administering USDA’s OWCP and overseeing each
              agency’s OWCP activities. According to the current DR, QWD supports the
              Department and its agencies by providing:
                        • OWCP-related policy guidance.
                        • Timely access to the chargeback reports containing agency cost
                           and claim information necessary to manage its OWCP.
                        • Technical assistance and consulting services.
                        • Periodic reviews of each agency’s OWCP to ensure compliance.

              In 2005, OIG conducted an audit of the Department’s compliance with the DR
              and found that the Department and its agencies were not in strict compliance.
              OIG recommended that the Department implement a schedule for performing
              reviews of agency compliance with Federal and Departmental requirements.
              Agency reviews were to ensure all agencies were providing adequate oversight
              of the timeliness of claims, employee health status, chargeback costs, and
              adequate training for their staff. The Department concurred with the
              recommendation, but interpreted the requirement to only apply if an agency
              requested such a review.




USDA/OIG‐IR/50901‐02‐IR                                                                Page 1
Objectives   The purpose of this inspection was to determine whether QWD has established
             sufficient controls to:
                 • Effectively communicate OWCP policy guidance.
                 • Provide agencies timely access to cost and claim information necessary
                     to manage their OWCP.
                 • Support agencies needing technical assistance and consulting services.
                 • Conduct periodic reviews of each USDA agency’s OWCP.

             We also reviewed whether USDA took appropriate and timely actions to
             implement prior OIG audit recommendations.




USDA/OIG‐IR/50901‐02‐IR                                                           Page 2
Findings and Recommendations

Policy             Prior OIG audit 50601-2-Hy recommendation that QWD (formerly
Compliance         SHEWD) perform agency reviews in compliance with the DR continues
                   to need management’s attention.

                   The DR required QWD to conduct periodic reviews of agency OWCP
                   activities and compliance with applicable regulations and guidance. The
                   purpose of the program reviews was for QWD to examine agencies’:
                       • Compliance with tracking claims.
                       • Management of new and long-term claims.
                       • Monitoring of OWCP employee status.
                       • Review of quarterly chargeback reports and monitoring cases to
                            identify discrepancies.
                       • Implementation of training programs for OWCP staff.

                   Periodic Reviews of Agencies by QWD

                   This inspection found that routine reviews conducted by QWD would be
                   useful to the Department in improving agency OWCP case management
                   activities, internal controls, and communication. Interviews with the
                   Director of QWD during this inspection confirmed routine agency
                   reviews are still not conducted. The Director of QWD informed OIG that
                   his division was not sufficiently staffed to provide routine agency
                   reviews. QWD has a program manager for OWCP but the program
                   manager also has collateral duties. The volume of work and the number
                   of agencies within USDA has essentially limited QWD to providing “ad
                   hoc” technical advice to program managers on a reactive basis. QWD
                   currently conducts compliance reviews only if requested by an agency.
                   The Director of QWD informed OIG that actions were taken to revise the
                   DR to clarify requirements; however, the revision of the DR remains in
                   draft. OIG concluded that periodic reviews would add value to the
                   USDA OWCP process. Solutions necessary to achieve such quality
                   assurances, whether by having QWD oversee a peer review process or
                   conducting such activities, need to be addressed.


Recommendation 1   QWD needs to comply with the DR by conducting periodic reviews of
                   each agency’s compliance with applicable regulations and guidelines.
                   This inspection found that periodic reviews conducted by QWD would be
                   useful to the Department in improving the efficiency and effectiveness of
                   agency OWCP activities. Due to QWD’s limited resources, it should
                   consider partnering with agency program managers to conduct periodic
                   reviews.


USDA/OIG‐IR/50901‐02‐IR                                                              Page 3
QWD Response       QWD plans to comply with the applicable DR by conducting compliance
                   reviews as part of the Office of Human Resources Management’s
                   (OHRM) Personnel Management Evaluations (PME), and as deemed
                   necessary by QWD and at the request of an agency. However, no
                   OHRM PMEs have been conducted, QWD has not deemed any
                   compliance reviews to be necessary, and no agencies have requested a
                   review since the publication of DR 4430-003 on January 8, 2001.
                   Partnering with agency program managers will definitely be considered
                   for future reviews.

OIG Position       We concur with the agency response for this recommendation and have
                   reached management decision.


Processing of      The DR requires that chargeback reports be reviewed quarterly to ensure
Chargeback         that the recipients are properly assigned to the correct agency and that no
Reports            cost discrepancies exist. OIG found that opportunities existed for QWD
                   and some agencies to strengthen the monitoring and accuracy of quarterly
                   chargeback reports.

                   Availability of Chargeback Report Software

                   Some agencies reported to OIG that they did not have the needed
                   software to download and access the chargeback data once they are
                   received. One agency reported that it was able to obtain an unofficial
                   copy of the software to access the chargeback report data from another
                   agency. Another agency reported it did not have the software to access
                   the reports.


Recommendation 2   QWD needs to verify and document that all USDA agency program
                   managers have the software necessary to review the quarterly chargeback
                   reports, that the program managers are familiar with using the software,
                   and that the software is working properly so that the data can be accessed
                   and reviewed. Based on each agency’s response, QWD will provide each
                   agency with the information necessary so that the agency can acquire the
                   needed software.

QWD Response       Non concur. Following the publication of the discussion draft, the
                   contractor which had been providing the quarterly workers’
                   compensation cost and claim data necessary to review the quarterly
                   chargeback reports suspended that optional service. As a result, QWD
                   has no need to survey the agencies and agencies have no need to procure
                   this software. QWD will pilot test the Forest Service “Delta-Core”



USDA/OIG‐IR/50901‐02‐IR                                                                Page 4
                   system as a possible enterprise solution Department-wide implementation
                   phase-in to begin October 1, 2010.

OIG Position       We concur with the agency response for this recommendation and have
                   reached management decision.

                   Quality and Timeliness of Chargeback Report Data

                   The Director of QWD stated that they are having difficulty getting their
                   contractor to produce error free chargeback data. OIG did not validate
                   the accuracy of the data supplied by the contractor during this review
                   since QWD stated that the reports contained errors. However, this
                   contract costs USDA $16,000 annually, and to ensure the best use of
                   funds, actions need to be taken to ensure contractor performance is
                   adequate. Since the contractor had provided incorrect data, QWD staff
                   had to spend time with the contractor reconciling the data, which
                   contributed to the delays in issuing the reports to the agencies.

                   All 11 program managers stated that the chargeback reports are
                   delinquent and are not received quarterly from the Department. In
                   January and February 2008 agency program managers stated that the
                   chargeback reports were between 6 months and 18 months delinquent.
                   QWD staff told OIG that the contractor responsible for these reports had
                   not been timely.


Recommendation 3   QWD needs to resolve the repeated errors in the chargeback reports
                   submitted by the contractor. If discrepancies in the contractor-supplied
                   data continue, then appropriate action regarding the contractor’s
                   performance needs to be taken by QWD. QWD needs accurate data from
                   the contractor to ensure that the quarterly chargeback reports are
                   delivered to the agency program managers in a timely manner.

QWD Response       Concur. Agencies need accurate data delivered in a timely manner.
                   However, as the contractor has suspended that optional service there is
                   currently no new quarterly data to match and provide to agencies. QWD
                   will pilot test the Forest Service “Delta-Core” system as a possible
                   enterprise solution Department-wide implementation phase-in to begin
                   October 1, 2010.

OIG Position       We agree with the planned action; however, until the Delta-Core system
                   is implemented in each of the agencies, QWD needs to establish an
                   interim solution for providing chargeback information to agencies for
                   their review. To reach management decision, timeframes for



USDA/OIG‐IR/50901‐02‐IR                                                             Page 5
                   implementing the interim solution with estimated completion dates need
                   to be provided to us.

                   Agency Reviews of the Chargeback Reports

                   The DR requires reviews of the adequacy of tracking and monitoring
                   controls over OWCP activities. Agency OWCP program managers were
                   asked to answer a series of questions pertaining to monitoring the
                   accuracy of chargeback data for their agency. The survey responses were
                   clarified during interviews with the respective program managers and, in
                   some cases, caseworkers and contractors assigned to the program. For

                   example, during the interviews we asked the 11 agency program
                   managers to provide information concerning their reviews of their
                   quarterly chargeback reports. We found that two of the program
                   managers responsible for four agencies did not review the quarterly
                   chargeback reports because the reports supplied by QWD have been
                   delinquent this year. The other 9 program managers, with responsibilities
                   for 13 agencies, conducted the quarterly reviews but were also receiving
                   the chargeback reports late. Also, some agencies could not access the
                   data in the chargeback reports once they received them because they did
                   not have the required software.

                   OIG found that once these chargeback reports are received, agencies do
                   not have a standardized approach for monitoring the validity of the
                   information. Various procedures and processes are used by agencies to
                   review billing submissions, such as pertinence to original injury and
                   whether amounts match chargeback reports. The responsibilities for
                   following up on cases also vary from agency to agency. For example,
                   one respondent indicated that the agency reviews all forms and
                   chargeback data for technical issues and forwards the information to
                   DOL for adjudication. In some cases, contractors are totally responsible
                   for these tasks and in other cases this is a shared responsibility between
                   USDA staff members and their contractors.

                   Agency program managers do not have any assurance that all of the
                   chargeback costs charged to their agencies are appropriate. Efforts to
                   identify discrepancies are limited to random reviews or when a particular
                   situation is brought to the agency’s attention. This hinders the agency’s
                   ability to ensure people are brought back to work in a timely manner and
                   that people remain eligible for continued OWCP benefits.


Recommendation 4   QWD needs to provide guidance to each of the agencies so that reviews
                   of chargeback data information are done consistently across USDA.

USDA/OIG‐IR/50901‐02‐IR                                                               Page 6
QWD Response       Concur. QWD has drafted an extremely detailed revision of DR 4430-
                   003, Workers’ Compensation Program. This revision provides the basis
                   for review of chargeback data across the Department when that data
                   becomes available. We expect publication by December 31, 2010.

OIG Position       We concur with the agency response for this recommendation and have
                   reached management decision.

Communication      OIG found that agency program managers keep current on OWCP policy
and                updates and procedural changes issued by DOL and will contact QWD
Information        when necessary. All program managers stated that they made an effort to
Dissemination      remain current on policies but could benefit from periodic meetings with
                   other agency OWCP managers to discuss processes and best practices.
                   Routine group communication and information sharing would increase
                   opportunities for teaming and leveraging agency best practices to
                   improve program operations.

                   Multiple agencies reported best practices to OIG during the inspection
                   that may have been beneficial to other attendees if shared at such a
                   gathering. One program manager had developed an employee/supervisor
                   OWCP package for all employees. The package contained information
                   such as an OWCP bifold brochure, OWCP injury claim forms, contact
                   information, and health and safety instructions. Employees in the agency
                   frequently traveled and having the packet readily available facilitated the
                   timely submission of claims.

                   Another best practice was identified where the agency shares the injury
                   log information with the safety officer who in turn conducts safety
                   inspections to address hazardous conditions. This agency is sponsoring a
                   “workshop” that focuses on health management and the workplace. The
                   agency informed OIG that it would invite other USDA program
                   managers to attend the workshop.

                   Innovations such as these could be shared during periodic meetings
                   facilitated by QWD among OWCP program managers.


Recommendation 5   QWD needs to facilitate regularly scheduled meetings with agency
                   program managers to discuss policy updates, chargeback reports,
                   processing issues, return-to-work programs, and other functions. These
                   sessions should also be used to share any best practices that are identified
                   during the periodic reviews conducted by QWD.

QWD Response       Concur. QWD will hold regularly scheduled meetings with agency
                   program managers to discuss policy updates, chargeback reports,

USDA/OIG‐IR/50901‐02‐IR                                                                 Page 7
                   processing issues, return-to-work programs, and other functions. These
                   sessions will share best practices identified during the periodic reviews
                   conducted by QWD. These sessions will be every six months at a
                   minimum with the first session scheduled no later than September 30,
                   2009.

OIG Position       We concur with the agency response for this recommendation and have
                   reached management decision.


                   OWCP Internet Website

                   OIG also found that QWD has not kept USDA’s OWCP Website up-to-
                   date with current and correct information.          The agency contact
                   information is not correct and has been out-of-date for at least three
                   years. In some cases program managers had left their agency several
                   years ago or were no longer assigned as OWCP program managers. As a
                   consequence, some employees and other interested individuals seeking
                   OWCP guidance from the USDA Website are provided incorrect contact
                   information. To ensure quality customer service is provided to
                   employees, claimants, and other interested stakeholders, actions need to
                   be taken to better monitor the accuracy of the contact information.


Recommendation 6   QWD needs to review the OWCP information posted on the USDA
                   Website to ensure that it is correct and is kept current.

QWD Response       Concur. QWD has reviewed and updated OWCP information on the
                   USDA website. We will continue to make these reviews on a quarterly
                   basis.

OIG Position       We concur with the agency response for this recommendation and have
                   reached management decision.


Experience and     OIG found that structured training could improve and better standardize
Structured         OWCP case management activities across agencies. Each respondent
Training           was asked to answer various survey questions pertaining to experience
                   and training. The questionnaire responses showed that the program
                   managers fulfilled their training needs differently.

                   Many respondents stated they were self-taught and obtained information
                   from the DOL Website, CFR 20, CA-10 instructions, human resources
                   personnel, and DOL contacts. Some program managers came to USDA
                   with extensive experience and training from other Government agencies

USDA/OIG‐IR/50901‐02‐IR                                                              Page 8
                   and Departments. One respondent indicated there is no formal training
                   provided and little support is provided from QWD. Other respondents
                   seek out OWCP conferences and training opportunities. All respondents
                   agreed that employee training requirements are not generally tracked and
                   that little formal training or refresher training is provided to caseworkers.
                   This includes training on case management activities and training
                   pertaining to the identification of fraud or abuse.

                   All respondents concurred that formal training is necessary and desired

                   by agency caseworkers. Respondents commented that training should be
                   offered or made available at least biannually to keep abreast of changes.
                   This training would provide current information allowing agency
                   program managers the ability to disseminate up-to-date information in a
                   timely manner.


Recommendation 7   QWD needs to provide a structured training program to program
                   managers and caseworkers when they assume the responsibility for
                   OWCP. Refresher training needs to be provided to ensure responsible
                   staff members remain current and understand program changes.

QWD Response       Concur. Currently the Departmental Workers’ Compensation Program
                   Manager meets individually with newly assigned agency program
                   managers. This training and education experience will be expanded and
                   formalized by incorporating learning opportunities into the regularly
                   scheduled meetings. (See Management Response to Recommendation
                   #5). Possible opportunities include providing speakers from Department
                   of Labor, Office of Workers’ Compensation Programs, and presentations
                   by USDA agencies using contractors to manage claims, best practices in
                   other Federal agencies, etc.

OIG Position       We concur with the agency response for this recommendation and have
                   reached management decision.


Conclusions        OIG found that QWD should take a more active role in managing the
                   OWCP program. QWD needs to develop processes for providing
                   oversight and guidance to agency OWCP program managers. Since
                   QWD has limited resources, it should consider partnering with agency
                   program managers to assist with its oversight activities.

                   OIG found that routine group communication and information sharing
                   would increase opportunities for teaming and leveraging agency best
                   practices to improve program operations. OIG found examples of best

USDA/OIG‐IR/50901‐02‐IR                                                                 Page 9
                  practices when interviewing agency OWCP program managers that
                  would be beneficial to other program managers in USDA. QWD needs
                  to facilitate regularly scheduled meetings with program managers to
                  discuss current OWCP issues and to share best practices.




USDA/OIG‐IR/50901‐02‐IR                                                      Page 10
Scope and Methodology

             OIG reviewed the relevant regulations and authorities for providing
             compensation and benefits to employees who sustain a traumatic injury or
             occupational condition while in the performance of duty. The inspection
             consisted of questionnaires and followup interviews with key Department and
             agency program managers and staff. This review covered the following areas:
                • QWD oversight of agency OWCP.
                • Communication among agencies and QWD.
                • Receipt and monitoring of reports to manage cases and verify
                    chargeback costs.
                • Formal and on-the-job OWCP training.
                • Contracting for OWCP-related services.
                • Identifying and reporting suspected fraud and abuse.

             OIG provided questionnaires to 11 program managers overseeing OWCP
             activities for each of USDA’s agencies and received responses from each. The
             questionnaire was designed to survey the adequacy of tracking and monitoring
             controls; monitoring of chargeback reports, policy guidance, and
             communications; and training of applicable staff assigned OWCP case
             management responsibilities. Questionnaires were provided to OWCP program
             managers and staffs representing the Risk Management Agency; Foreign
             Agricultural Service; Farm Service Agency; Agricultural Research Service;
             Cooperative State Research, Education and Extension Service; Economic
             Research Service; National Agriculture Statistics Service; Forest Service;
             Office of Inspector General; Agricultural Marketing Service; Animal and Plant
             Health Inspection Service; Food Safety and Inspection Service; Grain
             Inspection, Packers and Stockyards Administration; Rural Development;
             Natural Resources Conservation Service; Food and Nutrition Service; and
             Departmental Administration. Eleven interviews were conducted to clarify
             responses and obtain other pertinent data and information for these 17 agencies.
             Three program managers have OWCP responsibilities for multiple agencies,
             thus 17 agencies are covered by 11 interviews. Exhibit A presents the
             relationship between the program managers interviewed and the number of
             agencies for which they are responsible.

             This inspection also followed up on the implementation of corrective action
             associated with a prior OIG audit report titled, Management Oversight of
             Federal Employee’s Compensation Act Operations within the U.S. Department
             of Agriculture, Report Number 50601-2-Hy, dated August 2005.

             This inspection was conducted in 2008. OIG followed guidance provided in
             the President’s Counsel on Integrity and Efficiency, Quality Standards for
             Inspections, dated January 2005.


USDA/OIG‐IR/50901‐02‐IR                                                              Page 11
Exhibit A – Agency OWCP Responsibilities
______________________________________________________________________________
                                                                                 Exhibit A-Page 1of 1


Eight of the program managers interviewed are responsible for single agencies:

Forest Service (FS)
Office of Inspector General (OIG)
Food Safety and Inspection Service (FSIS)
Grain Inspection, Packers, and Stockyards Administration (GIPSA)
Rural Development (RD)
Natural Resources Conservation Service (NRCS)
Food and Nutrition Service (FNS)
Departmental Administration (DA)

Three of the program managers interviewed are responsible for two, three, and four agencies or
an additional nine agencies:

Agricultural Marketing Service (AMS)
Animal and Plant Health Inspection Service (APHIS)

Risk Management Agency (RMA)
Foreign Agricultural Service (FAS)
Farm Service Agency (FSA)

Agricultural Research Service (ARS)
Cooperative State Research, Education, and Extension Service (CSREES)
Economic Research Service (ERS)
National Agriculture Statistics Service (NASS)




USDA/OIG‐IR/50901‐02‐IR                                                                   Page 12
Exhibit B
                          Exhibit B – Page 1 of 3




USDA/OIG‐IR/50901‐02‐IR                Page 13
Exhibit B
                          Exhibit B – Page 2 of 3




USDA/OIG‐IR/50901‐02‐IR                Page 14
Exhibit B
                          Exhibit B – Page 3 of 3




USDA/OIG‐IR/50901‐02‐IR                Page 15
Exhibit C
                          Exhibit B – Page 1 of 3




USDA/OIG‐IR/50901‐02‐IR                Page 16
Exhibit C
                          Exhibit B – Page 2 of 3




USDA/OIG‐IR/50901‐02‐IR                Page 17
Exhibit C
                          Exhibit B – Page 3 of 3




USDA/OIG‐IR/50901‐02‐IR                Page 18
